                                U.S. Department of Energy
                                Office of Inspector General
                                Office of Inspections




         Summary Inspection Report

        Actions Taken in Response to Missing
        Hazardous Waste Containing Cyanide


     This document provides a summary of an Inspection Report that is not publicly releasable because it
contains information that is for Official Use Only and is controlled pursuant to the Freedom of Information Act.




                                                                            March 2003
ACTIONS TAKEN IN RESPONSE TO MISSING
HAZARDOUS WASTE CONTAINING CYANIDE




TABLE OF
CONTENTS




            INTRODUCTION                          1

            BACKGROUND                            1

            RESULTS OF INSPECTION                 2

            RECOMMENDATIONS AND LESSONS LEARNED   3
INTRODUCTION   Recently, the U.S. Government has become increasingly
               sensitive to the potential for terrorists to use certain
               materials as weapons of mass destruction. A report
               completed by the Central Intelligence Agency stated that
               “The threat from terrorists using a weapon of mass
               destruction has increased since Sept. 11, and extremist
               groups appear most interested in chemicals like cyanide.”
               For example, in February 2002, four suspected terrorists
               were arrested in Italy in possession of cyanide and maps of
               Rome pinpointing the U.S. Embassy and the city’s drinking
               water network.

               The Department of Energy (DOE) Office of Inspector
               General (OIG) received information that a container of
               hazardous waste containing cyanide had disappeared from
               a shipment of hazardous waste that originated from a DOE
               facility. Consequently, we initiated an inspection to
               determine whether:

               •   the apparent disappearance of the waste container was
                   appropriately reported to DOE by contractor officials;

               •   appropriate follow-up actions were taken; and

               •   the handling of this incident had broader implications
                   for DOE security.

               Due to potential security implications, the locations and the
               identities of Federal and contractor organizations involved
               in this incident have been omitted from this report.
               However, this report complements our non-public report on
               the same subject, through which the OIG provided DOE
               management with the specific details of our inspection.

BACKGROUND     The missing hazardous waste addressed by this inspection
               was in a 10-gallon container weighing approximately 40
               pounds, of which approximately 25 percent (10 pounds)
               was sodium cyanide. Sodium cyanide is a by-product of
               certain DOE plating operations and is handled and disposed
               of as hazardous waste. Sodium cyanide is highly toxic
               when ingested or inhaled.




Page 1                         Actions Taken in Response to Missing
                               Hazardous Waste Containing Cyanide
RESULTS OF   At this time, it is uncertain whether the hazardous waste
INSPECTION   containing cyanide is actually missing or, instead,
             inventory control errors occurred. We concluded, however,
             that the Department needs to heighten awareness of
             (1) security and safety issues associated with hazardous
             waste materials that could be used as weapons of mass
             destruction and (2) the importance of submitting required
             reports regarding incidents involving such materials so that
             appropriate follow-up actions may be taken. Specifically,
             we found that:

             •   there apparently was not appropriate recognition of the
                 missing waste container as a possible security risk.
                 Specifically, a required security incident report
                 regarding the lost waste container was never submitted
                 to DOE Headquarters by local contractor or DOE
                 officials;

             •   because the required report was not appropriately
                 submitted, timely follow-up actions, such as
                 notification of law enforcement officials, were not
                 taken;

             •   a required environmental, safety, and health Unusual
                 Occurrence report was not submitted to DOE by
                 contractor officials until three months after the loss was
                 first discovered; and

             •   concerns exist about controls over the hazardous waste
                 disposition process at the DOE location involved in this
                 incident.

             We also identified specific concerns with security and the
             inventory resolution process at an offsite waste disposal
             facility that processes hazardous waste for the DOE
             location involved in this incident.




Page 2                                            Results of Inspection
RECOMMENDATIONS   Based on the incident reporting problems identified during
AND LESSONS       this inspection, we recommended that the cognizant DOE
LEARNED           manager enhance awareness among site Federal and
                  contractor personnel regarding potential terrorist interest in
                  materials that could be used as weapons of mass
                  destruction and how incidents involving such materials
                  should be handled. We also made recommendations to
                  strengthen controls over the hazardous waste disposition
                  process at the location in question and to enhance the
                  security afforded DOE hazardous waste materials such as
                  waste containing cyanide. The cognizant DOE
                  organization agreed with our findings, conclusions, and
                  recommendations. Corrective actions have been initiated
                  that, if fully implemented, will be responsive to our
                  recommendations.

                  Because there are possible broader implications for DOE
                  security based on the lessons learned from this inspection,
                  we have suggested to the Under Secretary for Energy,
                  Science and Environment and the Administrator, National
                  Nuclear Security Administration, that they consider
                  whether Department-wide actions are warranted.




Page 3                         Recommendations and Lessons Learned
